Memorandum
To:           Gordon Hutchinson, Acting Chief Financial Officer

From:         David Warren
              Assistant Inspector General, Audits

Date:         March 8, 2013

Subject:      Controls over the Disposition of Equipment Purchased with ARRA Funds


The Office of Inspector General is initiating an audit of equipment purchased under ARRA
contracts. The objective of this audit is to assess the adequacy of controls over the disposition
of equipment such as computers, furniture, and tools purchased with ARRA funds.

During the audit, OIG audit personnel will meet with individuals responsible for ARRA
contract management, analyze documents associated with equipment purchases, and review
contract and invoice files. We will perform our audit work in accordance with Generally
Accepted Government Auditing Standards (GAGAS).

We request that your office arrange an entrance conference for us with the appropriate
Amtrak officials at the earliest possible date. We will keep you advised of the status of our
work and any material changes in our audit objectives.

Dan Krueger will be the Senior Director and Jana Brodsky will be the Auditor-in-Charge for
this audit. If you have any questions, please contact me, (David.Warren@amtrakoig.gov,
202 906-4742) or Dan Krueger (Daniel.Krueger@amtrakoig.gov, 312 382-5303).



cc:     Ted Alves, Inspector General
        Tom Howard, Deputy Inspector General
        DJ Stadtler, Vice President, Operations
        Jeff Martin, Chief Logistics Officer
        Bernard Reynolds, Deputy Logistics Officer, Procurement
        William Herrmann, Managing Deputy General Counsel
        Robert Thomas, Assistant Controller
        Melantha Paige, Internal Controls Analyst
        Todd Havens, Director of Risk and Compliance Services, KPMG
